No. 19-123

 

IN THE

Supreme Court of the United States

SHARONELL FULTON, ET AL.,
Petitioners,

Vv.

CrTy OF PHILADELPHIA, ET AL.,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

BRIEF FOR AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,691 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 3, 2020.

Cl

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
